HHS/OIG, Audit -"Ryan White Title I Funds Claimed by the Children AIDS Network Designed for Interfaith Involvement,
Inc. of the Norfolk Eligible Metropolitan Area During the Fiscal Year Ended February 28, 2002,"(A-03-03-00387)
Department of Health
and Human Services
Office of Inspector General -- AUDIT
"Ryan White Title I Funds Claimed by the Children AIDS Network Designed for Interfaith Involvement, Inc. of the
Norfolk Eligible Metropolitan Area During the Fiscal Year Ended February 28, 2002," (A-03-03-00387)
October 14, 2004
Complete
Text of Report is available in PDF format (502 kb). Copies can also be obtained by contacting the Office of Public
Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
The objectives of this audit were to determine whether the Office of City Manager, a Ryan White Title I grantee, ensured
that the Childrens AIDS Network Designed for Interfaith Involvement, Inc. (CANDII), one of its contractors, (1) provided
the expected program services to clients eligible for Comprehensive AIDS Resources Emergency (CARE) Act Title I and (2)
followed Federal requirements for claiming program costs under CARE Act Title I.  The Office of City Manager did not
ensure that CANDII provided the expected level of services to eligible CARE Act Title I clients; and CANDII did not always
follow Federal requirements for charging costs to the program.  In addition to two procedural recommendations, we
recommended that the Office of City Manager refund $6,645 to the Federal Government for the amount CANDII improperly charged
to the CARE Act Title I program.